        SIGAR                                                      Special Inspector General for
                                                                    Afghanistan Reconstruction




                                                                                    SIGAR Audit 13-2



         AFGHANISTAN'S NATIONAL POWER UTILITY:
         $12.8 MILLION IN DOD-PURCHASED
         EQUIPMENT SITS UNUSED, AND USAID PAID A
         CONTRACTOR FOR WORK NOT DONE




                                                                                 DECEMBER
                                                                                2012
SIGAR Audit 13-2/Afghanistan’s National Power Utility Interim Report
                                                        December 2012




SIGAR
                                                        AFGHANISTAN'S NATIONAL POWER UTILITY: $12.8 MILLION IN DOD-PURCHASED
                                                        EQUIPMENT SITS UNUSED, AND USAID PAID A CONTRACTOR FOR WORK NOT DONE



                                                         SIGAR AUDIT 13-2
 Special Inspector General for
  Afghanistan Reconstruction                               WHAT SIGAR FOUND
WHAT SIGAR REVIEWED                                        As part of our ongoing audit of U.S. funded projects to help
                                                           commercialize DABS, we identified two issues that we believe
Afghanistan’s national power utility, Da
                                                           warrant immediate attention.
Afghanistan Breshna Sherkat (DABS), operates
and manages electric power generation, import,             First, almost $12.8 million in equipment purchased to meet
transmission, and distribution throughout                  urgent needs in support of the counterinsurgency strategy is
Afghanistan. Since 2009, the U.S. government               sitting unused in storage controlled by the U.S. Army Corps of
has supported the Afghanistan government by                Engineers-Afghanistan Engineer District South (USACE-TAS)
obligating almost $88 million to assist in                 without a clear plan for installation. USFOR-A approved the
commercializing DABS. U.S. government                      projects under the Commander’s Emergency Response
projects-funded by U.S. Forces-Afghanistan                 Program (CERP)—intended to enable U.S. commanders to
(USFOR-A) and the U.S. Agency for International            respond to urgent requirements by carrying out programs that
Development (USAID) focus on assisting DABS                will immediately assist local populations—and originally
in increasing cost recovery, reducing losses,              intended to turn the equipment directly over to DABS-
and building its capacity to manage, operate,              Kandahar for installation. However, due to the lack of an
and maintain a national power system. This                 installation plan, nearly all of the equipment is currently stored
report provides information on equipment                   at Shorandam Industrial Park outside Kandahar City.
purchased to support DABS efforts in Kandahar              USFOR-A funded the procurement of the equipment without
and on fees paid to a USAID contractor. We will            considering DABS-Kandahar’s lack of capacity to install and
address additional findings related to U.S.                manage the equipment and without requiring an initial,
government projects to assist in DABS                      achievable plan for installation. Although the first contract
commercialization in a forthcoming audit report.           was awarded in August 2010, none of the agencies involved—
                                                           USFOR-A, USACE-TAS, USAID or DABS—completed an
WHAT SIGAR RECOMMENDS                                      installation plan, either prior to or following procurement of the
To ensure equipment purchased will be used to              equipment. USACE-TAS officials now cite the poor technical
rebuild, repair, and expand electrical                     capacity of DABS-Kandahar as a barrier preventing it from
distribution grids, we recommend that the
Commanding General, USFOR-A Regional
Command-South, determine whether $12.8
million of equipment procured for Kandahar
province can and should be installed in
Kandahar and either develop a plan for
installation or conduct a needs assessment to
determine other uses for the equipment. We
also recommend that the USAID Mission
Director for Afghanistan instruct the mission’s
contracting office to complete a comprehensive
assessment of task order deliverables and
contractor performance and seek
reimbursement for any fixed fee paid in excess
of the appropriate amount. USFOR-A and
USAID concurred with our recommendations.
Comments from both agencies are reproduced
                                                           U.S government-purchased equipment stored at Shorandam Industrial
in appendices IV and V.                                    Park, Kandahar province. SIGAR site visit, September 18, 2012.


    For more information contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
 properly installing and managing the equipment
 independently, but this factor was not considered
 earlier in the funding or procurement processes.
 Further contributing to the ongoing storage of the
 equipment is confusion regarding which agency is
 responsible for the installation of some equipment.
 In response to SIGAR’s initial request for baseline
 information on commercialization projects, USACE-
 TAS officials stated that approximately 50,000
 customer electric meters would be installed by
 USAID or its contractor as part of USAID’s task
 order. However, a modification to the task order
 states that the contractor only would be responsible
 for providing an installation plan and not for actual
 installation. USAID reported that the contractor has
 not completed the installation plan for the meters
 as required by the task order modification but has
 offered no further information about why this has
 not been done. Although the agencies reported
 different accounts of who was responsible for the
                                                               Meter stored at Shorandam Industrial Park, Kandahar
 installation of the meters, SIGAR could find no               province. SIGAR site visit, September 18, 2012.
 written agreement between the agencies
 supporting either agency’s assertions.
 The meters procured as part of the starter and                  Kandahar; an extended period of performance
 completion kits have a warranty of 2 years from the             through December 31, 2011; modified deliverables;
 date of dispatch from the manufacturer (March 3,                and a near doubling of the original contract value to
 2012). Given the amount of time that has already                almost $6.8 million.
 lapsed since purchase, if the meters are found to
                                                                 Although USAID had disbursed approximately $5.76
 be faulty following installation, the warranty may
                                                                 million to the contractor as of July 31, 2012, the
 already have expired. This would leave the U.S.
                                                                 contractor did not complete76 percent of the
 government with no recourse for the manufacturer
                                                                 deliverables required by the task order. Specifically,
 to replace defective equipment under warranty.
                                                                 according to the task order and modifications, the
 A second issue is that USAID paid a contractor the              contractor was responsible for providing a total of
 full allowable fee on a task order, despite the                 34 deliverables to USAID. USAID was able to
 contractor’s failure to complete 26 of the 34                   provide evidence that the contractor completed
 deliverables required. In 2009, USAID awarded the               seven deliverables on time and one additional
 $3.4 million cost-plus-fixed-fee Task Order 22 for              deliverable late. Neither USAID nor the contractor
 the Afghanistan Infrastructure and Rehabilitation               provided evidence that the contractor completed
 Program to Louis Berger Group Inc/Black & Veatch                any of the remaining 26 deliverables. Furthermore,
 Special Projects Corp Joint Venture. The task order,            SIGAR found no evidence that USAID assessed the
 with an original period of performance of May 10,               deliverables provided by the contractor or held the
 2009 to May 9, 2011, was initially awarded to                   contractor responsible for providing required
 provide expert technical assistance, training, and              outputs. Among the deliverables not completed are
 contract advisory support to DABS Corporate in                  a draft and final meter installation plan,
 Kabul. However, several modifications followed,                 procurement and installation of 231 boundary
 resulting in an entirely revised scope of work                  meters, and a transition manual and handover plan
 focusing on commercialization activities in                     for Kandahar commercialization activities.



For more information contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
December 18, 2012


General John R. Allen
  Commander, U.S. Forces-Afghanistan, and
  Commander, International Security Assistance Force

Major General Robert B. Abrams
  Commander, U.S. Forces-Afghanistan Regional Command-South,

Dr. S. Ken Yamashita
   USAID Mission Director for Afghanistan


The Special Inspector General for Afghanistan Reconstruction (SIGAR) is conducting an audit of
U.S. government efforts to assist in the commercialization of Afghanistan’s national power
utility, Da Afghanistan Breshna Sherkat (DABS) (code 063A). In this report, we address two
issues we found in the course of our audit that we believe warrant immediate attention prior to
issuing a final report in early 2013. First, almost $12.8 million in equipment purchased to
meet urgent needs is sitting unused in U.S. Army Corps of Engineers-Afghanistan Engineer
District South (USACE-TAS) controlled storage without a clear plan for installation. Second, the
U.S. Agency for International Development (USAID) paid a contractor the full allowable fee on a
contract despite the contractor’s failure to complete 76 percent of required deliverables. We
are providing the enclosed report for your review and comment. The report includes one
recommendation to the Commanding General of U.S. Forces-Afghanistan (USFOR-A) Regional
Command-South to work with stakeholders to develop and execute a plan to install equipment
valued at approximately $12.8 million and one recommendation to the USAID-Afghanistan
Mission’s contracting office to complete a comprehensive assessment of deliverables and
contractor performance and seek appropriate reimbursement for performance deemed
unsatisfactory.
We received comments from USFOR-A and USAID, which are reproduced in appendices IV and
V. USFOR-A concurred with our first recommendation and USAID concurred with our second
recommendation. SIGAR conducted this work under the authority of Public Law 110‐181, as
amended; the Inspector General Act of 1978; and the Inspector General Reform Act of 2008
and in accordance with generally accepted government auditing standards.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction

CC: The Honorable Hillary Rodham Clinton, Secretary of State; The Honorable Leon Panetta,
Secretary of Defense; The Honorable James B. Cunningham, U.S. Ambassador to Afghanistan;
General James N. Mattis, Commander, U.S. Central Command; Lieutenant General Thomas
Bostick, Commanding General and Chief of Engineers, U.S. Army Corps of Engineers
                                            TABLE OF CONTENTS


Background .................................................................................................................................................................. 1 
Almost $12.8 Million in Electricity Distribution Equipment Purchased to Meet Urgent Needs is Sitting Unused in
    Storage ................................................................................................................................................................ 4 

USAID Paid Contractor the Maximum Allowable Fee despite Poor Performance .................................................... 7 
Conclusions .................................................................................................................................................................. 9 
Recommendations ...................................................................................................................................................... 9 

Agency Comments ..................................................................................................................................................... 10 
Appendix I - Scope and Methodology ....................................................................................................................... 11 
Appendix II - Losses in Energy Distribution .............................................................................................................. 12 

Appendix III - Status of Deliverables for USAID Task Order 22 ............................................................................... 13 
Appendix IV - Comments from U.S. Forces-Afghanistan, Regional Command-South ............................................ 17 
Appendix V - Comments from the U.S. Agency for International Development ...................................................... 18 


TABLES

Table 1 - Ongoing and Completed DABS Commercialization Projects...................................................................... 3 

Table I - Status of Deliverables for USAID Task Order 22 ....................................................................................... 13 


FIGURES

Figure 1 - Pallets of Transformers .............................................................................................................................. 4 
Figure 2 - Wire Storage ................................................................................................................................................ 5 
Figure 3 - Pole Storage ................................................................................................................................................ 5 

Figure 4 - Pallets of Customer Meters ........................................................................................................................ 6 
Figure I - Energy Flow from Generation to Distribution ............................................................................................ 12 
Figure II - Losses in the Distribution System ............................................................................................................ 12 




SIGAR Audit 13-2/Afghanistan’s National Power Utility Interim Report                                                                                                   Page i
ABBREVIATIONS & ACRONYMS

             CERP                   Commander’s Emergency Response Program
             DABS                   Da Afghanistan Breshna Sherkat
             LBG/B&V                Louis Berger Group, Inc./Black & Veatch Special Projects Corp. Joint Venture

             RC-S                   Regional Command-South
             RC-SW                  Regional Command-Southwest
             SIGAR                  Special Inspector General for Afghanistan Reconstruction
             TO 22                  Task Order 22
             USACE                  U.S. Army Corps of Engineers
             USACE-TAS              U.S. Army Corps of Engineers-Afghanistan Engineer District South

             USAID                  U.S. Agency for International Development
             USFOR-A                U.S. Forces-Afghanistan




SIGAR Audit 13-2/Afghanistan’s National Power Utility Interim Report                                      Page ii
Since 2009, the U.S. government has supported the Afghan government by obligating almost $88 million to
assist in commercializing the national power utility, Da Afghanistan Breshna Sherkat (DABS). In addition to
those funds already obligated, the U.S. Agency for International Development (USAID) plans to provide an
additional $157 million between 2013 and 2016 to assist with building capacity and commercializing DABS as
part of USAID’s $814 million Power Transmission Expansion and Connectivity program. DABS operates and
manages electric power generation, import, transmission, and distribution throughout Afghanistan. U.S.
government projects—funded by USAID and U.S. Forces-Afghanistan (USFOR-A)—focus on assisting DABS in
increasing cost recovery, reducing losses,1 and building DABS’s capacity to manage, operate, and maintain a
national power system (see appendix II for more details on where/how losses occur throughout the
transmission and distribution process).
As part of our ongoing audit of U.S.-funded projects to assist in commercializing DABS—initiatives responding to
the Afghanistan government’s goal of developing a modern and efficiently run energy supplier—we identified
two issues related to U.S. commercialization projects in Afghanistan’s Kandahar province that we believe
warrant immediate attention and prompted us to issue this interim report.


BACKGROUND

Afghanistan’s National Priority Programs include increasing energy sector commercialization and national
generation capacity as a key component of the government’s national energy policy.2 The overall mission of
DABS within this framework is to acquire, operate, and maintain the equipment and systems needed to
finance, generate, supply, and expand electricity to all areas of Afghanistan.
DABS headquarters is located in the city of Kabul; DABS also maintains seven regional departments
throughout the country in Kabul, Parwan, Kunduz, Balkh, Herat, Nangarhar, and Kandahar provinces.3 Since
2009, the U.S. government has focused its commercialization efforts primarily in Kabul and—to a lesser
extent—Kandahar and Helmand. Due in part to these efforts, DABS-Kabul has been relatively successful in
improving revenue collection and reducing losses in Kabul.
The U.S. government’s efforts to assist DABS in Kandahar and Helmand have been less successful, however.
USAID cites security concerns, resistance from regional DABS officials, and a lack of available qualified staff as
difficulties in moving forward with commercialization activities. USAID estimates power losses of 60 to 80
percent for DABS-Kandahar. Our analysis of USAID data on DABS-Kandahar revenues from November 2010 to




1Commercialization    efforts include reducing technical and commercial losses in the distribution process. Technical losses
refer to differences in the amount of energy purchased by a utility and the amount of energy consumed or stored by the
utility; these losses often occur as a result of poorly maintained or aging equipment/infrastructure and overloading. Non-
technical (or commercial) losses refers to differences in the amount of (1) energy consumed and the amount billed
(unbilled energy), and (2) energy billed and energy paid (unpaid energy). Throughout this report, we use “losses” to refer to
both technical and nontechnical losses in the electrical distribution process.
2Government   of Afghanistan, National Priority Programs, Economic and Infrastructure Development Cluster, July 2010,
pg 49. The 22 National Priority Programs are grouped in six clusters: Security, Human Resource Development,
Infrastructure Development, Private Sector Development, Agriculture and Rural Development, and Governance. The
National Energy Program, designed to address the gap between supply and demand for electricity, is included under the
Infrastructure Development cluster.
3Additionally   DABS has 10 sub-regional offices, including an office in Helmand.




SIGAR Audit 13-2/Afghanistan’s National Power Utility Interim Report                                                  Page 1
 October 20114 indicates that such losses resulted in at least $4.3 million5 in lost revenue during that period.6
Nevertheless, USAID maintains that the successful commercialization of DABS-Kandahar will serve longer term
development needs and contribute to the U.S. military’s counterinsurgency strategy. In addition, continuing
commercialization activities are linked to the sustainability of projects intended to improve the distribution and
transmission of power to southern Afghanistan.
For our audit, we defined “commercialization” as U.S. government efforts to assist DABS to increase revenues,
decrease losses, and become a self-sustaining entity.7 Since 2009, USAID has obligated almost $61 million
on two contract task orders and one grant to assist in commercialization efforts in Kabul and Kandahar;
however, all but the grant are completed. USFOR-A has obligated more than $27 million in Commander’s
Emergency Response Program (CERP) funds—intended to enable U.S. commanders to respond to urgent
requirements by carrying out programs that will immediately assist local populations—to USACE-TAS to
purchase equipment to assist in rebuilding, repairing, and expanding current electrical distribution grids for
Regional Command-South (RC-S) and Regional Command-Southwest (RC-SW).8 USAID is not currently funding
any new commercialization projects in Afghanistan, but it is planning to provide an additional $157 million to
DABS in direct assistance between 2013 and 2016 to assist in commercialization and capacity building. Table
1 shows ongoing and completed U.S. government projects designed to assist in the commercialization of
DABS.




4USAIDreceived DABS-Kandahar revenue data from its contractor in Kandahar. The contractor departed Kandahar in
December 2011, so more recent data is not available for analysis.
5Actualtotal amount collected by DABS-Kandahar during this period was 145,352,438 Afghanis. Analysis and currency
conversion based on 60 percent losses and September 30, 2012 U.S. Department of Treasury exchange rate of 50.5
Afghanis to 1 U.S. dollar.
6Some  losses are common in electricity transmission and distribution. For example, losses in the United States average 7
percent.
7While USFOR-A, USACE, and USAID were unable to provide an official definition of commercialization, all agencies agreed
with our working definition. A document provided by USAID during our audit work defines commercialization activities as
those “supporting the development of effective commercial capacity of DABS, including the systems, corporate
commitment, and human resource capacity to operate on a commercial basis, with full cost recovery.” We coordinated the
development of our definition with USAID early in our work and believe the definitions are materially the same.
8The area of responsibility for RC-S is Kandahar, Uruzgan, Zabul, and Daykundi provinces. The area of responsibility for RC-
SW is Helmand and Nimroz provinces.




SIGAR Audit 13-2/Afghanistan’s National Power Utility Interim Report                                                 Page 2
Table 1 - Ongoing and Completed DABS Commercialization Projects
Funding                                                                                          Period of          Obligated
                    Project             Location          Description             Status
Agency                                                                                          Performance          Amount

            Kabul Electricity
                                                                                                5/5/2009-
USAID       Services Improvement       Kabul                                    Complete                          $53,025,290
                                                                                                3/31/12
            Project                                  Commercialization
            Kandahar                                 activities
                                                                                                5/10/09-
USAID       Commercialization          Kandahar                                 Complete                          $6,875,436
                                                                                                12/31/11
            (Task Order 22)b

                                                     Support Etisalat in
                                                                                                12/1/11-
USAID       Etisalat Afghanistan       Kandaharc     mobile electricity bill    Ongoing                           $676,110
                                                                                                12/31/12
                                                     payment

            Kandahar City Starter                    The near term                              8/13/10-
                                                     increase and               Complete
            Kit 1                                                                               3/25/12
RC(S)                                  Kandahar      improved reliability of                                      $7,446,712d
            Kandahar City Starter                    electrical power in the                    7/20/11-
                                                                                Ongoinge
            Kit 2                                    Kandahar area.                             1/16/12

            Pashmul Completion
RC(S)                                  Kandahar                                                                   $2,843,564d
            Kits

            Maiwand Completion                                                                  09/29/11-
RC(S)                                  Kandahar                                 Ongoing                           $2,704,128d
            Kits                                                                                11/30/12
                                                     Purchase materials
            Spin Boldak
RC(S)                                  Kandahar      for new digital,                                             $3,232,527d
            Completion Kits
                                                     individual metered
            Sangin Completion                        connections to
RC(SW)                                 Helmand                                                                    $2,843,564d
            Kits                                     homes and
                                                     businesses.
            Musa Qa’leh
RC(SW)                                 Helmand                                                  9/28/11-          $2,704,128d
            Completion Kits                                                     Ongoing
                                                                                                12/30/12
            Hyderabad Completion
RC(SW)                                 Helmand                                                                    $2,704,128d
            Kits

RC(SW)      Tangi Completion Kits      Helmand                                                                    $2,843,564d

Total                                                                                                             $87,899,151
Source: SIGAR analysis of USFOR-A, USACE-TAS, and USAID data.
Notes: aRows highlighted in blue denote projects discussed in this report.
bTheinitial task order scope of work cites providing technical assistance, training, and contract advisory support to DABS
Corporate. Modification 1 to the Task Order changed the scope of work to providing technical assistance to DABS-
Kandahar.
cThe initial grant cites supporting Etisalat in mobile electricity bill payment in Kandahar. Modification 1 to the grant

changed the implementation area from Kandahar to Kabul.
dRepresentsamount of CERP funds transferred from RC-S and RC-SW to USACE-TAS through a Military Interdepartmental
Purchase Request.
eUSACE-TAS has not modified the period of performance and is still receiving equipment purchased as part of the
Kandahar City Starter Kit 2.


SIGAR Audit 13-2/Afghanistan’s National Power Utility Interim Report                                                       Page 3
ALMOST $12.8 MILLION IN ELECTRICITY DISTRIBUTION EQUIPMENT
PURCHASED TO MEET URGENT NEEDS IS SITTING UNUSED IN STORAGE

According to USAID,9 improvement in
residential collections is by far the largest       Figure 1 - Pallets of Transformers
opportunity for DABS-Kandahar to increase
revenues. However, existing customer
meters are antiquated, and USAID reports
that surveys suggest around 70 percent of
meters are typically broken or under-
recorded.10 Existing meters also can be
easily tampered with, causing inaccurate
billing of energy consumption.
To help DABS-Kandahar address these
issues, USFOR-A approved four CERP
projects intended to help DABS decrease
losses and increase revenues. These
projects were designed to procure urgently
needed electricity distribution equipment11
—including new electric meters—for
Kandahar. USFOR-A requested that                Source: SIGAR site visit photo, September 18, 2012.
USACE-TAS execute the contracts to
purchase the equipment for use by DABS-Kandahar to help rebuild, repair, and expand the current electrical
distribution grids, including meter replacement. USACE-TAS executed the CERP projects through two contracts
for this equipment in Kandahar City (Starter Kit 1 and Starter Kit 2, signed August 13, 2010 and July 20, 2011,
respectively) and one contract for completion kits in Pashmul, Maiwand, and Spin Boldak (signed
September 29, 2011).12 USACE-TAS procured the equipment from a contractor, Jubaili Brothers, at a total of
more than $12.8 million in CERP funds. As of September 20, 2012, USACE-TAS had received approximately
90 percent of the equipment.13




9Reported by USAID contractor Louis Berger Group Inc./Black & Veatch Special Projects Corporation Joint Venture

(LBG/B&V).
10Task   Order 22 Close-out Report dated March 2012.
11The   CERP funds were transferred from USFOR-A to USACE through a Military Interdepartmental Purchase Request.
12Starter kits and completion kits are made up of equipment to improve the electricity distribution infrastructure. According
to USACE officials, and based on our review of the required equipment, the two kits are virtually identical in content and
include items such as meters, transformers, poles, and trucks.
13The percentage excludes equipment received for Kandahar City Starter Kit 1, as USACE has not been able to provide

SIGAR with receiving information for this contract; however, USACE officials stated that 100 percent of the equipment for
this contract has been received.




SIGAR Audit 13-2/Afghanistan’s National Power Utility Interim Report                                                 Page 4
USFOR-A approved the CERP projects based on USFOR-A requirements that CERP funds be used to meet an
urgent need. USFOR-A originally intended that the equipment be turned directly over to DABS-Kandahar for
installation.14 The project justifications contained in the approved CERP files for the four projects state that
the projects support the U.S. government’s counterinsurgency strategy in Afghanistan, respond to an urgent
humanitarian need, and increase the Afghan government’s capacity to generate and deliver electricity to the
Afghan people. The CERP files also state that DABS-Kandahar would administer and execute the installation of
the equipment, under the supervision and management of USACE-TAS. However, USACE-TAS only received
funding to procure the equipment and was not funded to provide supervision and management of the
installation.


Figure 2 - Wire Storage                                       Figure 3 - Pole Storage




Source: SIGAR site visit photo, September 18,                 Source: SIGAR site visit photo, September 18, 2012.
2012.

After procuring the equipment, however, USACE-TAS officials determined that DABS-Kandahar lacked the
technical and operational capacity to properly install and manage it.15 Instead of being turned over to DABS for
installation, therefore, nearly all equipment currently sits unused in a USACE-TAS-controlled storage facility at
Shorandam Industrial Park outside Kandahar City without a plan in place for its ultimate installation.16 Figures
1-4 show the equipment in its current storage location.




14USFOR-A    PUB1-06, Commander’s Emergency Response Program (CERP) SOP, March 2012.
15
     USACE-TAS has not made a formal assessment of the capacity of DABS-Kandahar.
16 Shorandam Industrial Park is a U.S. facility housing a power plant supplying electricity, and is located just outside of
Kandahar City. According to USACE, the facility will be turned over to the Government of Afghanistan in December 2014.
SIGAR auditors and an engineer inspected the equipment in storage in September 2012 and the equipment appeared to
be well-maintained within the storage facility and USACE had a process and internal controls for approving requests and
issuing equipment to DABS-Kandahar. According to USACE-TAS, the equipment is presently distributed to DABS-Kandahar
on an as-needed basis. To date, however, only a limited number of items have been turned over.




SIGAR Audit 13-2/Afghanistan’s National Power Utility Interim Report                                                 Page 5
                 Figure 4 - Pallets of Customer Meters




                 Source: SIGAR site visit photo, September 18, 2012.

USFOR-A funded the procurement of the equipment without considering DABS-Kandahar’s lack of capacity to
install and manage the equipment or requiring an initial, achievable plan for installation. Although the first
contract was awarded in August 2010, none of the agencies involved—USFOR-A, USACE-TAS, USAID or DABS—
completed an installation plan, either prior to or following procurement of the equipment.17 In addition,
despite CERP requirements that projects be sustained by a local population, agency, or government office, no
agency determined the capacity of the Afghan stakeholder, DABS, to install and maintain the equipment until
after it had already been procured. USACE-TAS officials now cite the poor technical capacity of DABS-Kandahar
as a barrier preventing it from properly installing and managing the equipment independently, but this factor
was not considered earlier in the funding or procurement processes; USAID and Asian Development Bank
officials18 independently verified this assessment.
Further contributing to the ongoing storage of the equipment is confusion regarding which agency is
responsible for the installation of some equipment. In response to our initial data request for baseline
information on commercialization projects, USACE-TAS officials stated that approximately 50,000 customer
electric meters, procured as part of the Kandahar City Starter Kit 2, and constituting approximately 60% of the
value, would be installed by USAID or its contractor as part of USAID’s Task Order 22 (TO 22). However,
modification 2 of TO 22 explicitly contradicts this, stating that the contractor only would be responsible for
providing an installation plan and not for actual installation. Specifically, the modification states:
         “The U.S. Army Corps of Engineers (USACE) will be providing 55,000 customer meters to DABS to
         replace existing meters that are dysfunctional. The [USAID] contractor shall prepare a plan and
         implementation schedule for the installation of the new meters provided by USACE. The plan will



17Recent discussions between USFOR-A RC-S, USACE-TAS, and DABS-Kandahar as a direct result of our audit indicate

potential efforts to develop an installation plan as well as improve communication on future CERP projects.
18Asian Development Bank is the lead donor organization in Afghanistan’s energy sector, and, in conjunction with the

Afghan government, is developing the master plan for Afghanistan’s energy sector.




SIGAR Audit 13-2/Afghanistan’s National Power Utility Interim Report                                               Page 6
         include the replacement of existing meter boxes to protect the new meters and prevent tampering.
         The contractor will not be responsible for installing the meters.”
USAID reports that the contractor has not completed the installation plan for the meters as required by
modification 2 of TO 22, but has offered no further information about why this has not been done. Although
the agencies reported different accounts of who was responsible for the installation of the meters, we could
find no written agreement between the agencies supporting either agency’s assertions.
The meters procured as part of the starter and completion kits have a warranty of 2 years from the date of
dispatch from the manufacturer, March 3, 2012. Given the amount of time that has already lapsed since
purchase, if the meters are found to be faulty following installation, the warranty may already have expired.
This would leave the U.S. government with no recourse for the manufacturer to replace defective equipment
under warranty. According to USAID officials, some of this equipment may be installed as part of its planned
Power Transmission Expansion and Connectivity program, but USAID does not yet have any finalized
statements of work, and no formal, coordinated installation plan has been developed with USFOR-A, USACE-
TAS, and DABS.


USAID PAID CONTRACTOR THE MAXIMUM ALLOWABLE FEE DESPITE POOR
PERFORMANCE

On May 10, 2009, USAID awarded the $3.4 million cost-plus-fixed-fee TO 22 for the Afghanistan Infrastructure
and Rehabilitation Program to LBG/B&V.19 The task order, with an original period of performance of May 10,
2009 to May 9, 2011, was initially awarded to provide expert technical assistance, training, and contract
advisory support to DABS Corporate in Kabul. However, several modifications followed, resulting in an entirely
revised scope of work focusing on commercialization activities in Kandahar; an extended period of
performance through December 31, 2011; modified deliverables; and a near doubling of the original contract
value to almost $6.8 million.
Although USAID had disbursed approximately $5.76 million to the contractor as of July 31, 2012, the
contractor did not complete76 percent of the deliverables required by TO 22. Specifically, according to the
task order and modifications, the contractor was responsible for providing a total of 34 deliverables to USAID.
USAID was only able to provide evidence that the contractor completed seven deliverables on time and one
additional deliverable late. Neither USAID nor the contractor provided evidence that the contractor completed
any of the remaining 26 deliverables. Furthermore, we found no evidence that USAID assessed the
deliverables provided by the contractor or held the contractor responsible for providing required outputs.
Among the deliverables not completed are a draft and final meter installation plan, procurement and
installation of 231 boundary meters, and a transition manual and handover plan for Kandahar
commercialization activities. (See appendix III for a list of all deliverables and associated status.)
In the TO 22 closeout report, the contractor stated that several challenges prevented the completion of
deliverables, including short timeframes, delays, and issues with DABS-Kandahar management. The
contractor also noted, however, that these challenges were evident from the start of the activities supporting
DABS-Kandahar. For example, the contractor did not meet with DABS-Kandahar managers until September
2010 — almost a year after the Kandahar commercialization piece was added. Similarly, although LBG/B&V




19InAugust 2006, USAID awarded a 5-year indefinite quantity contract with a ceiling price of $1.405 billion, to the
LBG/B&V for the Afghanistan Infrastructure and Rehabilitation Program. Under this contract, between August 25, 2006 and
August 24, 2011, USAID issued 27 cost-plus-fixed-fee task orders. Black and Veatch was the implementing partner
responsible for the implementation of TO 22 (contract number 306-I-22-06-00517-00).




SIGAR Audit 13-2/Afghanistan’s National Power Utility Interim Report                                            Page 7
hired a Task Order Manager in early December 2010, he did not arrive in Kandahar until August 2011.
According to the contractor’s closeout report for TO 22:
         “…it was clear from the start that both the timeframe and the scope of work were not sufficient to
         deliver the expected results. On top of this the external environment was one that lacked the legal
         framework to support commercialization efforts, senior [DABS] management were kept in place
         despite the fact that they were not qualified for the positions and had an agenda to continue with the
         inefficient and corrupt practices of the past…”
Adding to the contractor’s stated challenge of too much work and too little time, USAID and DABS headquarters
officials identified friction and a personality conflict between the LBG/B&V TO 22 Manager and the head of
DABS-Kandahar as further issues preventing the completion of some contract activities. According to a former
Black & Veatch official responsible for the closeout of TO 22, the Task Order Manager and Deputy Task Order
Manager were pulled out of Kandahar in November 2011 to help alleviate the personality conflicts.
Consequently, the contractor had a Task Order Manager on the ground in Kandahar for fewer than 4 months of
the entire commercialization effort. Despite the contractor’s assertion that challenges in fulfilling the terms of
the contract were “clear from the start,” the contractor nonetheless signed the task order and associated
modifications, thereby accepting responsibility for the contract deliverables. It remains unclear whether the
contractor made satisfactory efforts to provide contractually required deliverables.
On January 12, 2012, after the expiration of the task order’s period of performance, a senior LBG/B&V official
responsible for the Afghanistan Infrastructure and Rehabilitation Program contract submitted a written request
to USAID to modify TO 22’s statement of work. The contractor-requested modification appears to be an effort
to more closely align the statement of work with what the contractor actually completed. However, the
modification request only addressed 5 of the 26 deliverables the contractor did not complete. According to
USAID officials, the modification request has been under review since they received it over 9 months ago.
USAID stated that it will review the items LBG/B&V is requesting that USAID remove from the statement of
work and that the contracting officer’s representative is still working with LBG/B&V to reconcile the
contractor’s budget. However, a review of communication between USAID and the contractor suggests that
USAID plans to simply modify the statement of work, per the contractor’s request, without adjusting the fee or
other costs in any other way.20
The Federal Acquisition Regulation allows a fixed fee to be conditional based upon receipt of required
deliverables. USAID, however, paid the maximum allowable fixed fee to the contractor, even though our
analysis found that only 24 percent of required deliverables were completed. Federal Acquisition Regulation
16.306(d)(1) states that a cost-plus-fixed-fee contract requiring a definite goal or end product—such as
reports—requires the contractor to complete and deliver the specified end product within the estimated cost as
a condition for payment of the entire fixed fee. Additionally, the Afghanistan Infrastructure and Rehabilitation
Program contract21 states that,
         “If the Contracting Officer determines that this [fixed fee payment] method results in paying a
         disproportionately higher ratio of fixed fee than the percentage of work that the Contractor has
         completed, then the Contracting Officer may suspend further payment of any fixed fee until the
         Contractor has made sufficient progress to justify further payment…”



20Our analysis of communication between responsible USAID officials and the contractor from February to September 2012
found that USAID continually asked the contractor to provide budget revisions so that a modification to the contract, per the
contractor’s request, could be completed. Since the completion of the task order, in December 2011, USAID never told the
contractor that the contractor may face a reduction in fee due to poor performance. After receiving a copy of a draft of this
report, on October 17, 2012, USAID informed the contractor of the possible performance-based reduction in fixed fee, more
than 9 months after the original modification request.
21Contract   306-I-00-06-00517-00, §B.5.3.a.




SIGAR Audit 13-2/Afghanistan’s National Power Utility Interim Report                                                 Page 8
The Afghanistan Infrastructure and Rehabilitation Program contract allows up to 4 percent of contract costs to
be billed as a fixed fee, which resulted in approximately $224,000 in potential fees for TO 22.22 Although the
contractor only completed 24 percent (8 out of 34) of the deliverables, leaving 76 percent (26 out of 34)
incomplete, the contractor billed for—and USAID paid—the full fee allowable under the task order.
Furthermore, according to the modification request by LBG/B&V, the contractor requested a $70,000 discount
from a supplier due to late equipment delivery. We reviewed communication between the contractor and
USAID regarding the discount, but have seen no evidence that any cost savings were passed on to the U.S.
government.


CONCLUSIONS

Although CERP guidance requires that program funds be used to respond to urgent needs with immediate,
locally sustainable projects, nearly all of the CERP-funded equipment purchased to help DABS-Kandahar
reduce losses and increase revenue is currently in storage with no plan for future installation. The equipment
could be used to replace antiquated existing meters and allow access to electricity for more customers in
Southern Afghanistan. However, USFOR-A and USACE-TAS, in coordination with DABS and USAID, did not
adequately plan for the installation of the equipment, and USFOR-A and USACE-TAS failed to properly assess
the technical capacity of DABS-Kandahar prior to purchasing the equipment. If the technical capacity of DABS-
Kandahar prevents the proper installation, management, and use of the equipment, U.S. government agencies
should work with DABS to comprehensively assess how the equipment can provide immediate
commercialization and counterinsurgency effects for DABS throughout Afghanistan.
Additionally, although the USAID contractor for TO 22 only completed 24 percent of the deliverables, USAID
paid the full fee allowable under the task order. The Federal Acquisition Regulation requires a contractor to
complete and deliver a specified end product as a condition for payment of the entire fixed fee. In this case,
however, USAID has paid the contractor a fee for work that was not completed and should therefore reassess
whether the contractor is indeed due the maximum fee allowable.


RECOMMENDATIONS

To ensure that purchased electrical equipment will be used to repair, and expand electrical distribution grids,
we recommend that the Commanding General for USFOR-A RC-S:
    1. Put approximately $12.8 million in equipment to better use by determining whether equipment
       procured as part of the starter and completion kits for Kandahar province can and should be installed
       in Kandahar (given CERP requirements for urgency, counterinsurgency effects, and capacity of DABS
       Kandahar to sustain the equipment), and:
              a.   If so, develop and execute a clear plan for the installation of the equipment; this plan should
                   include clear timelines, responsibilities, and funding streams for installation, and should be




22The   initial negotiated fixed fee for the task order was approximately $264,000. This is a fixed fee and should not
fluctuate with contract costs. However, emails from responsible USAID officials to the contractor required the contractor to
limit its fee to 4 percent of total contract costs. USAID provided disbursements as of July 31, 2012, but the contractor’s
estimate at completion provided to USAID on September 19, 2012 showed a total of almost $5.61 million dollars spent
under the contract, resulting in a fixed 4 percent fee of $224,544.




SIGAR Audit 13-2/Afghanistan’s National Power Utility Interim Report                                                 Page 9
                  executed as soon as possible to respond to the urgent needs and counterinsurgency
                  objectives, as required, or;
             b.   If not, conduct a needs assessment for consideration of repurposing the equipment at
                  locations other than those indicated in the original procurement documentation.
                  Consideration of repurposing should respond to the requirement for timely installation based
                  on DABS’ needs, and capacity for installation and management in areas throughout the
                  country.
This recommendation should be performed in close coordination with USACE-TAS, USAID, DABS Corporate, and
DABS-Kandahar.
To ensure that USAID’s contractor is not paid a fee for work that was never performed and/or completed, we
recommend that the USAID Mission Director for Afghanistan instruct the USAID Mission Afghanistan’s Office of
Acquisition and Assistance to, before closing out TO 22:
    2. Complete a comprehensive assessment of TO 22 deliverables and contractor performance. Using the
       results of this assessment, USAID should negotiate the appropriate fixed fee associated with TO 22
       that should be paid and seek reimbursement for any fee paid in excess of the negotiated amount in
       order to hold the contractor accountable for incomplete deliverables.


AGENCY COMMENTS

USFOR-A and USAID provided written comments on a draft of this report. These comments are reproduced in
appendices IV and V, respectively. USFOR-A, USACE-TAS, and USAID also provided technical comments, which
we incorporated into our final report, as appropriate.
USFOR-A concurred with our first recommendation. According to USFOR-A, RC-S has developed a plan for the
installation of the equipment that was approved by the RC-S Commanding General and includes timelines,
responsibilities, and funding streams for installation. Although we have not been provided a copy of the
approved plan, these steps appear to meet the intent of our recommendation.
USAID concurred with our second recommendation and stated that the Office of Acquisition and Assistance is
pursuing a course of action with the contractor to negotiate an appropriate fixed fee for work completed under
TO-22.
                                    




SIGAR Audit 13-2/Afghanistan’s National Power Utility Interim Report                                   Page 10
APPENDIX I - SCOPE AND METHODOLOGY

In July 2012, the Special Inspector General for Afghanistan Reconstruction (SIGAR) initiated an audit of U.S.
government efforts to assist in the commercialization of Da Afghanistan Breshna Sherkat (DABS). Specifically,
SIGAR sought to (1) identify the goals of U.S. government projects to commercialize DABS, particularly in Kabul
and Kandahar; assess the extent to which metrics are capturing progress of those projects; and evaluate the
extent to which completed and ongoing projects have achieved or are achieving stated objectives; (2) assess
the transition from completed DABS commercialization projects to recently awarded/planned projects, and the
extent to which planned projects consider lessons learned; and (3) evaluate the level of coordination among
U.S. agencies involved in DABS commercialization and the extent to which commercialization projects
implemented by those agencies contribute to a self-sustaining DABS. SIGAR issued this interim report to
highlight issues related to DABS commercialization requiring immediate consideration prior to the issuance of
our detailed audit report scheduled for issuance in early 2013. To accomplish our objectives, we reviewed
relevant guidance, including the Federal Acquisition Regulation and the current Money as a Weapon System
Afghanistan, dated March 2012. We reviewed all award, contract, disbursement, and obligation data for Task
Order 22 (TO 22), all subsequent modifications, and all 8 Commander’s Emergency Response Program (CERP)
projects. We reviewed the closeout report for TO 22 and all CERP file documentation for the 8 CERP projects.
We reviewed documents in the period between July 2010 and September 2012.
We performed data reliability tests to determine the accuracy and completeness of the computer-processed
data in the report by comparing CERP project files to Military Interdepartmental Purchase Request data
provided by U.S. Forces-Afghanistan (USFOR-A) and U.S. Army Corps of Engineers-Afghanistan Engineer District
South (USACE-TAS). We also compared USAID disbursement and obligation data with TO 22 contract and
modification documentation. We determined that the data were sufficiently reliable for the purposes of the
audit objectives.
We assessed USFOR-A’s internal controls over CERP project files to determine whether CERP project
documentation in the Combined Information Data Network Exchange database was complete.
We interviewed officials at USAID Offices of Financial Management, Acquisition and Assistance, Economic
Growth and Infrastructure, and Program and Project Development; Department of Defense Offices USFOR-A J9,
USFOR-A Regional Command-South, USFOR-A Inspector General, and USACE-TAS. We also interviewed
representatives from the World Bank, the Asian Development Bank, DABS Corporate, and current and former
in-country Black & Veatch staff. We also viewed the equipment purchased by USACE with USFOR-A funds
stored at the Shorandam Industrial Park outside of Kandahar City.
We conducted our audit work in Kabul, Afghanistan, and Washington, D.C., from July 2012 to October 2012, in
accordance with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives. This audit was performed by SIGAR
under the authority of Public Law 110-181, as amended, the Inspector General Act of 1978, and the Inspector
General Reform Act of 2008.




SIGAR Audit 13-2/Afghanistan’s National Power Utility Interim Report                                   Page 11
APPENDIX II - LOSSES IN ENERGY DISTRIBUTION

The majority of energy losses occur in the distribution phase of energy flow to customers. Figure I shows how
energy flows from generation to transmission and distribution.

        Figure I - Energy Flow from Generation to Distribution




        Source: National Energy Education Development Project (Public Domain).

Losses in the distribution of energy occur for technical and non-technical (or commercial) reasons, and utilities
must address both types simultaneously (not one or the other) to increase revenues and achieve full cost
recovery. Figure 2 demonstrates where technical and non-technical losses occur in the distribution system.

Figure II - Losses in the Distribution System




Source: USAID document for the South Asia Regional Initiative for Energy



SIGAR Audit 13-2/Afghanistan’s National Power Utility Interim Report                                     Page 12
APPENDIX III - STATUS OF DELIVERABLES FOR USAID TASK ORDER 22

The table below shows the status of deliverables for Task Order 22 (TO 22). Deliverables completed are those
USAID provided to SIGAR found to be sufficient to meet the deliverable as required by the task order and all
modifications. See table I.

Table I - Status of Deliverables for USAID Task Order 22
                   Deliverable                  Modification #                   Date Due                    Status

1        Monthly reports                    Initial Task Order         Within 5 days after the end of     Completed
                                                                       each month

2        Annual work plan                                              Within 15 days of contract         Completed,
                                                                       award; USAID will respond          but not on time
                                                                       within 5 calendar days and
                                                                       anticipate a finalized work plan
                                                                       within 30 days of award

3        Final report                                                  Not specified                      Incomplete

4        Brief technical reports                                       Not specified                      Completed

5        Baseline estimates of energy                                  Not specified                      Completed
         input to KED and cash collection

6        Training materials for senior                                 Not specified                      Incomplete
         DABS, KED, and Afghanistan
         government officials

7        Technical reports/training                                    Not specified                      Incomplete
         materials related to DABS
         corporate development

8        Baseline study showing current     Modification 1             No later than 90 days after        Completed
         production of energy and sales                                award
         with comparison to DABS-
         Kandahar documented revenue

9        Establishment of employee                                     No later than 1 year after         Incomplete
         distribution loss reduction                                   award
         qualifications program for up to
         30 staff

10       Well-trained distribution loss                                No later than 240 days after       Incomplete
         prevention team established                                   award
         within DABS-Kandahar with key
         performance indicators and
         incentive system




SIGAR Audit 13-2/Afghanistan’s National Power Utility Interim Report                                            Page 13
Table I - Status of Deliverables for USAID Task Order 22
                   Deliverable                    Modification #                 Date Due                Status

11       Detailed designs, including bills    Modification 1           No later than 120 days after   Completed
         of quantity of hardware                                       award
         requirements, for Kandahar
         technical distribution system
         improvements


12       System for calculating electricity                            No later than 1 year after     Incomplete
         tariffs that would allow for full                             award
         cost recovery and a schedule for
         implementation




13       Plan designed and implemented                                 No later than 90 days after    Incomplete
         to facilitate DABS-Kandahar                                   award
         management
         structure/accounting system
         towards commercial viability



14       Draft report on bulk and             Modification 2           No later than November 17,     Incomplete
         boundary metering with results                                2011
         of technical/non-technical loss
         calculations and plan for
         recovering losses




15       Final report on bulk and                                      No later than December 20,     Incomplete
         boundary metering with results                                2011
         of technical/non-technical loss
         calculations and plan for
         recovering losses incorporating
         USAID review comments

16       Draft customer meter                                          No later than December 1,      Incomplete
         installation plan, detailing meter                            2011
         replacement plan

17       Final customer meter                                          No later than December 20,     Incomplete
         installation plan incorporating                               2011
         USAID review comments




SIGAR Audit 13-2/Afghanistan’s National Power Utility Interim Report                                       Page 14
Table I - Status of Deliverables for USAID Task Order 22
                   Deliverable                   Modification #                  Date Due                    Status

18       List of employees trained in        Modification 2            Upon COTR approval                 Incomplete
         equipment maintenance




19       Written set of goals for            Modification 3 (revised   No later than 90 days after        Incomplete
         monitoring production, sales,       from Modification 1)      award
         and revenue



20       Implemented plan to procure 13                                No later than November 15,         Incomplete
         computers                                                     2011




21       Normalize Pooyesh customer                                    No later than November 15,         Incomplete
         database                                                      2011




22       Implement customer cash                                       No later than November 15,         Incomplete
         receipting system                                             2011

23       Implement customer care                                       No later than November 15,         Incomplete
         module                                                        2011




24       Implement revenue                                             No later than November 15,         Completed
         management module                                             2011




25       Procurement and installation of     Modification 3 (revised   Not specified; meters intended     Incomplete
         231 boundary meters                 from Modification 2)      to provide information on
                                                                       losses for report. Draft report
                                                                       no later than November 17,
                                                                       2011; final report no later than
                                                                       December 20, 2011.

26       Installation of a data center and                             Not specified; meters intended     Incomplete
         train DABS employees on how to                                to provide information on
         collect and use data generated                                losses for report. Draft report
         by the boundary meters                                        no later than November 17,
                                                                       2011; final report no later than
                                                                       December 20, 2011.



SIGAR Audit 13-2/Afghanistan’s National Power Utility Interim Report                                           Page 15
Table I - Status of Deliverables for USAID Task Order 22
                   Deliverable                   Modification #                     Date Due                   Status

27       Training plan and attendance        Modification 3 (revised     Training plan no later than       Incomplete
         sheets for all trained DABS         from Modification 2)        October 15, 2011.
         employees on bulk and
                                                                         All training to be completed no
         boundary meeting
                                                                         later than December 31, 2011.

         Pilot program, including                                        Initial tranche of no less than   Incomplete
         implementation plan, for SMS                                    500 bills delivered by SMS
         billing                                                         before November 30, 2011.
28
                                                                         SMS billing implementation
                                                                         plan before December 15,
                                                                         2011.

29       Syllabus and training materials                                 No later than November 30,        Incomplete
         for each seminar/training                                       2011
         session (use and maintenance
         of IT systems)

30       Complete equipment inventory                                    Upon COTR approval                Incomplete
         of all items procured and
         delivered to DABS

31       Evidence of training and                                        No later than November 30,        Incomplete
         capacity building (use and                                      2011
         maintenance of IT systems, such
         as testing results)

32       Roster of participants for                                      No later than November 30,        Completed
         training and capacity building                                  2011
         (use and maintenance of IT
         systems)



33       Transition manual/handover          Modification 3              No later than December 15,        Incomplete
         plan                                                            2011

34       DABS office improvements                                        No later than October 31,         Incomplete
                                                                         2011

Source: SIGAR analysis of TO 22, modifications, and related documentation.
a
 Although a closeout report, dated March 22, 2012, was completed, it omits a thorough discussion of specific deliverables.
The report therefore does not appear to meet the requirement for a final report as stipulated in the contract.




SIGAR Audit 13-2/Afghanistan’s National Power Utility Interim Report                                              Page 16
APPENDIX IV - COMMENTS FROM U.S. FORCES-AFGHANISTAN, REGIONAL
COMMAND-SOUTH




SIGAR Audit 13-2/Afghanistan’s National Power Utility Interim Report   Page 17
APPENDIX V - COMMENTS FROM THE U.S. AGENCY FOR INTERNATIONAL
DEVELOPMENT




SIGAR Audit 13-2/Afghanistan’s National Power Utility Interim Report   Page 18
SIGAR Audit 13-2/Afghanistan’s National Power Utility Interim Report   Page 19
SIGAR Audit 13-2/Afghanistan’s National Power Utility Interim Report   Page 20
SIGAR Audit 13-2/Afghanistan’s National Power Utility Interim Report   Page 21
SIGAR Audit 13-2/Afghanistan’s National Power Utility Interim Report   Page 22
SIGAR Audit 13-2/Afghanistan’s National Power Utility Interim Report   Page 23
                              SIGAR Responses to USAID’s December 2, 2012 Memorandum
    1. The report accurately characterizes agency responsibilities, and USAID’s comment provides no
       evidence or specific instance to demonstrate that our report conflates USAID and USACE authorities or
       processes.
    2. The report does not state that TO 22 activities had no effect in improving commercialization, and we
       agree with USAID that DABS Kandahar still has unacceptably high levels of ATC losses. Nevertheless,
       USAID does not provide evidence that TO 22 activities resulted in the asserted increases in supplied
       power or revenues, and USAID mischaracterizes the cause for the increases. In fact, we would expect
       power generation and revenues to increase in Kandahar in 2011, but those increases likely have
       nothing to do with TO 22 activities. As we reported in SIGAR 12-12, CERP-funded power plants were
       built and commissioned in Kandahar in the third quarter of fiscal year 2011, and the U.S. government
       (through the Afghanistan Infrastructure Fund) continues to provide up to 27 megawatts of “free”
       electricity to DABS Kandahar; DABS Kandahar then collects revenues based on the U.S.-funded
       energy.
    3. The report does not state that the TO 22 contractor was responsible for installation, but the report
       clearly states, as indicated by USAID, that the contractor was required to complete an installation plan.
       On multiple occasions, we requested a copy of the installation plan that was required by the TO 22
       Statement of Work. USAID representatives told us that the plan was not completed. Further, in
       response to an earlier draft of this report, USAID provided all deliverables completed by the contractor.
       USAID did not provide a copy of the plan at that time, and we still have not seen evidence of its
       completion.
    4. As indicated in the report, and according to USACE, very little of the equipment has been installed.
    5. In discussions with USFOR-A and USACE, and in their formal comments on this report, the agencies did
       not report that the International Finance Corporation was conducting an assessment of best use of the
       CERP-funded materials. Moving forward, we hope that USAID shares its plans and the forthcoming
       assessment with key stakeholders, including USFOR-A and USACE, because USAID has no authority or
       responsibility for CERP funds.
    6. We agree that the minor changes help clarify the recommendation, and we made the requested
       revisions, as appropriate, in the final draft.
    7. USAID’s assessment shows that the contractor only completed 17 deliverables, or 50 percent. As
       noted by USAID, the remaining 17 deliverables were either not completed or partially completed.
       Further, USAID’s analysis cites several deliverables as “completed,” without providing any evidence to
       SIGAR. Therefore, we maintain that USAID should hold the contractor responsible for the deliverables
       and seek appropriate reimbursement.
    8. Because USAID heeded our recommendation and took action to explore and resolve the issue, we
       deleted this line from the recommendation in the final report.
    9. CERP is a DOD program, managed by USFOR-A; thus, it remains unclear why USAID would
       independently commission an assessment for the best use of CERP-procured equipment that resides
       in USACE controlled storage. Further, in discussions with USFOR-A and USACE, and in their formal
       comments to this report, the agencies did not report that the International Finance Corporation was
       conducting an assessment of best use of the CERP-funded materials, and rather reported that no plan
       was in place for installation of the equipment. Therefore the recommendation is not redundant.


                                     




SIGAR Audit 13-2/Afghanistan’s National Power Utility Interim Report                                    Page 24
 
 




                              This audit was conducted under project code
                                              SIGAR-063A.




SIGAR Audit 13-2/Afghanistan’s National Power Utility Interim Report        Page 25
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                           improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                           improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                           improve contracting and contract management
                                            processes;
                                           prevent fraud, waste, and abuse; and
                                           advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs                 Web: www.sigar.mil/fraud
                                           Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                           Phone Afghanistan: +93 (0) 700-10-7300
                                           Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                           Phone International: +1-866-329-8893
                                           Phone DSN International: 312-664-0378
                                           U.S. fax: +1-703-601-4065




                               Public Affairs Officer
              Public Affairs               Phone: 703-545-5974
                                           Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                           Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
